<html>
<title> - AMERICA'S TEACHER COLLEGES: ARE THEY MAKING THE GRADE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                      AMERICA'S TEACHER COLLEGES: 
                      ARE THEY MAKING THE GRADE?



                                 HEARING
                               BEFORE THE
               SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS

                                 OF THE
                       COMMITTEE ON EDUCATION AND
                              THE WORKFORCE
                        HOUSE OF REPRESENTATIVES
                      ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
		
              HEARING HELD IN WASHINGTON, DC, MAY 20, 2003


                            Serial No. 108-16

          Printed for the use of the Committee on Education
          and the Workforce



     87-985 pdf
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001 



                   COMMITTEE ON EDUCATION AND THE WORKFORCE
                         JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia			DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado
MARSHA BLCAKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                    Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director



              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS
             HOWARD P. "BUCK" McKEON, California, Chairman

JOHNNY ISAKSON, Georgia, Vice Chairman	DALE E. KILDEE, Michigan
JOHN A. BOEHNER, Ohio			JOHN F. TIERNEY, Massachusetts
THOMAS E. PETRI, Wisconsin		RON KIND, Wisconsin
MICHAEL N. CASTLE, Delaware		DAVID WU, Oregon
SAM JOHNSON, Texas			RUSH D. HOLT, New Jersey
FRED UPTON, Michigan			BETTY McCOLLUM, Minnesota
VERNON J. EHLERS, Michigan		CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio			CHRIS VAN HOLLEN, Maryland
RIC KELLER, Florida			TIMOTHY J. RYAN, Ohio
TOM OSBORNE, Nebraska			MAJOR R. OWENS, New York
TOM COLE, Oklahoma			DONALD M. PAYNE, New Jersey
JON C. PORTER, Nevada			ROBERT E. ANDREWS, New Jersey
JOHN R. CARTER, Texas			RUBE?N HINOJOSA, Texas
PHIL GONGREY, Georgia
MAX BURNS, Georgia



                       TABLE OF CONTENTS


OPENING STATEMENT OF CHAIRMAN HOWARD P. "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC	........................................................1

OPENING STATEMENT OF RANKING MINORITY MEMBER, REPRESENTATIVE DALE 
KILDEE, SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC	........................................................4

TESTIMONY OF MRS. LISA GRAHAM KEEGAN, CHIEF EXECUTIVE OFFICER, 
EDUCATION LEADERS COUNCIL, WASHINGTON, D.C.  ...........................7

TESTIMONY OF MS. KATI HAYCOCK, DIRECTOR, THE EDUCATION TRUST, 
WASHINGTON, D.C. .......................................................9

TESTIMONY OF DR. ARTHUR E. WISE, PRESIDENT, NATIONAL COUNCIL FOR 
ACCREDITATION OF TEACHER EDUCATION, WASHINGTON, D.C. ..................11

TESTIMONY OF DR. LOUANNE KENNEDY, PROVOST AND VICE PRESIDENT FOR 
ACADEMIC AFFAIRS, CALIFORNIA STATE UNIVERSITY, NORTHRIDGE, 
NORTHRIDGE, CALIFORNIA ................................................13

TESTIMONY OF DR. JERRY ROBBINS, DEAN, COLLEGE OF EDUCATION, EASTERN 
MICHIGAN UNIVERSITY, YPSILANTI, MICHIGAN ..............................14

TESTIMONY OF DR. JOYCE R. COPPIN, CHIEF EXECUTIVE, DIVISION OF HUMAN 
RESOURCES, NEW YORK CITY DEPARTMENT OF EDUCATION, BROOKLYN, NEW 
YORK ..................................................................17

APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN HOWARD P. 
"BUCK" MCKEON, SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC	.......................................37

APPENDIX B -- WRITTEN TESTIMONY OF MRS. LISA GRAHAM KEEGAN, CHIEF 
EXECUTIVE OFFICER, EDUCATION LEADERS COUNCIL, WASHINGTON, D.C.	.......41


APPENDIX C -- WRITTEN TESTIMONY OF MS. KATI HAYCOCK, DIRECTOR, THE 
EDUCATION TRUST, WASHINGTON, D.C. .....................................53

APPENDIX D -- WRITTEN TESTIMONY OF DR. ARTHUR E. WISE, PRESIDENT, 
NATIONAL COUNCIL FOR ACCREDITATION OF TEACHER EDUCATION, 
WASHINGTON, D.C. ......................................................65

APPENDIX E -- WRITTEN TESTIMONY OF DR. LOUANNE KENNEDY, PROVOST AND 
VICE PRESIDENT FOR ACADEMIC AFFAIRS, CALIFORNIA STATE UNIVERSITY, 
NORTHRIDGE, NORTHRIDGE, CALIFORNIA ....................................87

APPENDIX F -- WRITTEN TESTIMONY OF DR. JERRY ROBBINS, DEAN, COLLEGE OF 
EDUCATION, EASTERN MICHIGAN UNIVERSITY, YPSILANTI, MICHIGAN ...........97

APPENDIX G -- WRITTEN TESTIMONY OF DR. JOYCE R. COPPIN, CHIEF EXECUTIVE, 
DIVISION OF HUMAN RESOURCES, NEW YORK CITY DEPARTMENT OF 
EDUCATION, BROOKLYN, NEW YORK ........................................131

APPENDIX H -- THE BROAD FOUNDATION AND THE FORDHAM FOUNDATION 
REPORT ON, "BETTER LEADERS FOR AMERICA'S SCHOOLS:  A MANIFESTO", 
SUBMITTED FOR THE RECORD BY MRS. LISA GRAHAM KEEGAN ..................139

APPENDIX I -- QUESTIONS TO WITNESSES SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE MAX BURNS AND RESPONSES FROM DR. JERRY ROBBINS, DR. 
ARTHUR E. WISE, DR. LOUANNE KENNEDY, AND MS. KATI HAYCOCK. ...........215

APPENDIX J -- WRITTEN STATEMENT SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE BETTY MCCOLLUM ........................................229

APPENDIX K -- LETTER SUBMITTED FOR THE RECORD FROM DR. DARYAO S. 
KHARTI AND DR. ANNE O. HUGHES ........................................233

TABLE OF INDEXES .....................................................238


 
                 AMERICA'S TEACHER COLLEGES:  ARE THEY
                             MAKING THE GRADE?
                 _____________________________________

                          TUESDAY, MAY 20, 2003

                        HOUSE OF REPRESENTATIVES
                      SUBCOMMITTEE ON 21ST CENTURY
                            COMPETITIVENESS,
                COMMITTEE ON EDUCATION AND THE WORKFORCE,

                            WASHINGTON, D.C.






	The subcommittee met, pursuant to call, at 2 p.m., in Room 2175, Rayburn House Office 
Building, Hon. Howard P. "Buck" McKeon [chairman of the subcommittee] presiding.

	Present:  Representatives McKeon, Petri, Castle, Ehlers, Tiberi, Cole, Carter, Gingrey, 
Burns, Kildee, Tierney, Wu, Holt, McCollum, McCarthy, Van Hollen, Ryan, Owens, and Payne.

	Also Present:  Representatives Bishop and Davis of California.

	Staff Present:  Kevin Frank, Professional Staff Member; Alexa Marrero, Press Secretary; 
Maria Miller, Coalitions Director for Education Policy; Susan Oglinsky, Coalitions Advisor; 
Deborah L. Samantar, Committee Clerk/Intern Coordinator; Kathleen Smith, Professional Staff 
Member; Rich Stombres, Professional Staff Member; Holli Traud, Legislative Assistant; Ellynne 
Bannon, Minority Legislative Associate/Education; Ricardo Martinez, Minority Legislative 
Associate/Education; Alex Nock, Minority Legislative Associate/Education; and Joe Novotny, 
Minority Staff Assistant/Education.

OPENING STATEMENT OF CHAIRMAN HOWARD P. "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC

Chairman McKeon  XE "Chairman McKeon"  .  A quorum being present, the Subcommittee on 
21st Century Competitiveness will come to order.

	We are meeting today to hear testimony on America's teachers colleges:  Are they making 
the grade?

	Under committee rule 12(b) opening statements are limited to the chairman and ranking 
minority member of the subcommittee.  Therefore, if other members have statements, they may be 
included in the hearing record.  With that, I ask unanimous consent for the hearing record to remain 
open 14 days to allow members' statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.  Without objection, so ordered.

Good afternoon.  I would like to welcome each of you to the hearing today as the 
subcommittee continues its focus on reauthorization of the Higher Education Act.  Today we are 
holding our second hearing on teacher quality.

	Last October the subcommittee held a hearing on Training Tomorrow's Teachers:  Ensuring 
a Quality Postsecondary Education, to learn about the effects of amendments made in 1998 to Title 
II of the Higher Education Act on the quality of teacher education programs in the United States.  
At that hearing we discussed the effectiveness of the competitive grant programs authorized under 
Title II and examined accountability provisions for teaching preparation programs under the act.  
The purpose of today's hearing is to discuss whether teacher colleges and other teacher preparation 
programs are producing a competitive cadre of teachers.

	The caliber of teacher education programs at institutions of higher education has come 
under increased scrutiny over the past several years.  Among other things, teacher preparation 
programs have been criticized for providing prospective teachers with inadequate time to learn 
subject matter; for teaching a superficial curriculum; and for being unduly fragmented, with 
courses not linked to practice teaching and with education faculty isolated from their arts and 
sciences faculty colleagues.

	In particular, there have been concerns about high rates of failure of recent teacher college 
graduates on initial licensing or certification exams.  A recent Congressional Research Service 
report noted that one of the most publicly reported instances of high failure rates was in 1998 when 
59 percent of prospective teachers in Massachusetts failed that State's new certification exam.  
These dismal results raised questions about the quality of the preparation and training prospective 
teachers had received from teacher preparation programs at institutions of higher education across 
the State.

	In June 2002, the Secretary of Education issued the first full annual report on teacher 
preparation as required under Title II of the Higher Education Act.  The report, titled Meeting the 
Highly Qualified Teachers Challenge:  The Secretary's Annual Report on Teacher Quality, 
concluded that the teacher preparation system in this country has serious limitations.  Not only does 
acceptable achievement on certification assessments differ markedly among the States, the 
Secretary's report found that most States, in setting the minimum score considered to be a passing 
score, set those scores well below the national averages.  The data collected for this report suggest 
that schools of education and formal teacher training programs are failing to produce the types of 
highly qualified teachers that the No Child Left Behind Act demands.

	There is widespread awareness that the subject matter knowledge and teaching skills of 
teachers play a central role in the success of elementary and secondary education reform.  More 
than half of the 2.2 million teachers that America's schools will need to hire over the next 10 years 
will be first-time teachers, and they will need to be well prepared for the challenges of today's 
classrooms.  For these reasons the nation's attention has increasingly focused on the role that 
institutions of higher education and States play in ensuring that new teachers have the content 
knowledge and teaching skills they need to ensure that all students are held to higher standards.

	Approximately 1,200 institutions of higher education award undergraduate degrees in 
elementary and secondary education.  In addition to earning a baccalaureate degree in education, 
other undergraduates get ready to teach by participating in a teacher education program while 
earning a degree in an academic subject area.  Still other individuals enter teaching through post 
baccalaureate certificate programs or master's programs offered by institutions of higher education.  
Finally, alternative routes to teaching that target, for example, individuals changing careers may 
also involve higher education institutions.

	Title II of the Higher Education Act includes programs and provisions intended to improve 
the overall quality of teacher preparation programs administered by institutions of higher 
education, hold these programs accountable for the quality of their graduates, and strengthen 
recruitment of highly qualified individuals to the teaching profession.  Institutions of higher 
education have a great deal of responsibility in contributing to the preparation of our nation's 
teachers.  We are here today to learn whether provisions under Title II of the Higher Education Act 
are working and whether our teacher preparation programs are making the grade.

	We have a distinguished panel of witnesses today, and I would like to thank you for your 
appearance before the subcommittee today, and I look forward to your testimony and any 
recommendations you may have as we work to reauthorize the teacher provisions of the Higher 
Education Act.


WRITTEN OPENING STATEMENT OF CHAIRMAN HOWARD P. "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC-SEE APPENDIX A

	
Chairman McKeon  XE "Chairman McKeon"  .  I now yield to Mr. Kildee, Ranking Member of 
the committee, for his opening statement.


OPENING STATEMENT OF RANKING MINORITY MEMBER, 
REPRESENTATIVE DALE KILDEE, SUBCOMMITTEE ON 21ST CENTURY 
COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC

Mr. Kildee  XE "Mr. Kildee"  .  Thank you, Mr. Chairman.  I am very pleased to join my 
respected friend Chairman McKeon at today's hearing on teacher quality and Title II of the Higher 
Education Act.

	Having led efforts on this side of the aisle during the last higher education reauthorization, I 
am looking forward to strengthening our teacher preparation programs and increasing the supply of 
highly qualified teachers.  Nothing is more critical to the education of a child than the quality of 
that child's teacher.  I taught for 10 years and have been guided by that.  I really gained from having 
taught with such great teachers at Flint Central High School, many of whom attended Eastern 
Michigan.  This makes the work at our nation's schools of education and other programs that 
produce and certify our teachers extremely critical.  Without top-notch schools of education, we 
simply can't produce the number of teachers that our children need to learn.

	Title II of the Higher Education Act plays an important role in improving the quality of our 
teacher preparation programs.  The research provided through its grant programs has improved 
teacher certification and reform initiatives at the State level and assured strong partnerships 
between institutions of higher education and high-need local educational agencies.

	As we look to authorize or reauthorize these programs, we need to make several critical 
changes.  First, the definition of high-need local educational agency should be set at a higher, more 
targeted threshold.  This will lead to needier school districts being included in partnerships and an 
increased number of disadvantaged children benefiting from improved teaching.

	In addition, we need to expand our efforts to include all of the high-quality universities in 
Title II programs.  This includes expanding opportunities for historically black colleges, Hispanic-
serving institutions and travel colleges to improve teacher preparation and to work with 
disadvantaged school districts.

	We also need to examine the accountability provision of Title II to ensure that critical 
information on the performance of schools of education and other teacher preparation programs is 
reported and used to improve quality.  The reporting and accountability system we established in 
1998 with Mr. McKeon and I was a very good first start, and in this reauthorization we need to 
improve how States and institutions report data to ensure that we get an accurate picture of how 
many teacher candidates pass initial certification exams.

	Lastly, I want to comment on the president's loan forgiveness proposal for math, science 
and special education teachers.  Loan forgiveness is an important tool to ensure that highly 
qualified teachers can be recruited and retained, especially in our most disadvantaged schools.  
While the president's proposal improves the existing loan forgiveness program that Chairman 
McKeon and I created in the last reauthorization, more must be done.  We should not limit 
expanded loan forgiveness to just math, science and special education teachers.  Instead we should 
increase loan forgiveness to 17,500 for all teachers teaching in Title I schools.  In addition, we must 
provide some initial levels of forgiveness in the first five years of teaching in a Title I school.

	The present loan forgiveness authority requires teachers to teach for five years prior to ever 
receiving any loan forgiveness.  This 5-year waiting period reduces the attractiveness of loan 
forgiveness as a retention-based incentive.  We should instead be providing an increasing portion 
of forgiveness in each of the first five years a teacher teaches in a Title I school.  This change alone 
could make the existing loan forgiveness program a much more attractive retention tool for school 
districts seeking highly qualified teachers.


Mr. Chairman, I want to close my remarks by thanking the witnesses for their testimony, 
and thank you for holding this hearing.  There is no more important task than to assure that our 
teachers are well prepared to help our children learn, and I yield back the balance of my time, Mr. 
Chairman.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

I will now introduce our witnesses.  First is Lisa Graham Keegan.  Ms. Graham Keegan is 
the chief executive officer and founding member of the Education Leaders Council in Washington, 
D.C.  Prior to the Education Leaders Council, she served as the superintendent of public instruction 
in Arizona.  I first met her when we went there and held a hearing on charter schools.  She was 
elected to the Arizona House of Representatives for two terms.  During her tenure she served as 
vice chair and chair of the house education committee.

	Next we have Kati Haycock.  Ms. Haycock is a director of The Education Trust in 
Washington, D.C., and previously served as executive vice president and chief operating officer of 
the Children's Defense Fund.  Additionally, Ms. Haycock founded and served as the chief 
executive officer of the Achievement Council, a nonprofit organization that assists teachers and 
administrators in low performing, predominantly minority schools.

	Then we have Dr. Arthur E. Wise.  Dr. Wise is president of the National Council for 
Accreditation of Teacher Education in Washington, D.C., and is the coauthor of A License to 
Teach, which concerns professionalization of teaching.  He also served as director of the Rand 
Corporation's Center for the Study of the Teaching Profession.

	Then we have Dr. Louanne Kennedy.  Dr. Kennedy is provost and vice president for 
academic affairs at California State University-Northridge in California; which used to be in my 
district.  Prior to this she held the positions of vice president for academic affairs at Keen College 
of New Jersey and associate provost of Baruch College, the City University of New York, and was 
also acting president of the university, I know, for about a year.  It is good to see you again.

	I would like to introduce Mr. Kildee to introduce our next witness.

Mr. Kildee  XE "Mr. Kildee"  .  Thank you, Mr. Chairman.  It is my great pleasure to introduce 
Dr. Jerry Robbins, dean of the College of Education at Eastern Michigan University.  My daughter 
chose to attend Eastern Michigan, not in your school, but in the School of Psychology.  Dr. 
Robbins has 23 years of experience as a dean of a college of education, the last 12 years at Eastern 
Michigan University.  In addition, Dr. Robbins has 15 additional years in other higher educational 
roles and has served as a principal and a teacher.

	Eastern Michigan University and the college Dr. Robbins have the distinction of being the 
largest producer of educational personnel in the country, in both quantity and quality.  In addition, 
Eastern Michigan University is among the largest producers of new teachers.  Eastern Michigan 
also has received the NCATE accreditation and represents one of the more innovative examples of 
schools of education.

	What impresses me most about Dr. Robbins' and Eastern Michigan's focus on preparing 
high-quality teachers, and I stress high quality, is that all of EMU's prospective teachers complete 
an academic major and minor.  Graduates from Eastern Michigan know the subject matters they are 
hired to teach.  In addition, an EMU graduate must take the State exam prior to being 
recommended for the Michigan Department of Education for licensure.  Dr. Robbins is a big reason 
this focus on quality remains a steadfast commitment at Eastern Michigan.  This focus on quality is 
exactly what this committee is seeking as we look to reauthorize Title II of the Higher Education 
Act.  We are fortunate to have Dr. Robbins before this committee today, and I welcome his insight 
and testimony.

	Thank you, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

	I would now like to introduce Mr. Owens to introduce our next panelist.

Mr. Owens  XE "Mr. Owens"  .  Mr. Chairman, I am pleased to introduce Joyce Coppin, who is 
the chief executive of Division of Human Resources, New York City Department of Education.  I 
have a long biography here, but I will not bother to read it.  I know Dr. Coppin is an activist and 
idealist, a person who has been on the frontlines in every aspect of education starting with teaching, 
superintendent of a local district and high school superintendent.  She is presently part of the 
massive reorganization of the schools in New York City, and we are so glad to have her to help 
train those businessmen who are in charge and keep them focused on education.

Dr. Coppin was appointed as the Brooklyn High School superintendent more than 14 years 
ago.  She served for 14 years in the position as Brooklyn High School superintendent, giving back.  
The magnitude of what that means, in Brooklyn there are 56,000 students, 4,500 staff members and 
a budget of almost $275 million.

	In 2002, she was appointed to her present position as chief executive for the division of 
human resources.  Her office provides service and support to the 130,000 staff members who are 
directly and indirectly responsible for education of children in the city of New York schools.  In 
addition, she also oversees the department's teaching recruitment, preparation, professional 
development, and retention programs.

	The last time I saw Dr. Coppin, I think it was at a special reception in honor of her at 
Medgar Evers College, and it is a college where a large number of teachers are educated.  They 
have had their problems with their teachers being able to pass examination and get certification, 
and they have made great improvements in that respect.

	So, Dr. Coppin, it is great to see you here and know that you are close to the top decision-
making processes as New York City Schools reorganize themselves.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you very much.

	Before the witnesses begin, I would like to explain to you a little bit about those lights you 
see in front of you.  I know your testimonies will probably be longer than five minutes.  Your full 
testimony will be included in the record.  When the light comes on green, it means you have five 
minutes.  When the yellow comes on, it means you have a minute.  When the red comes on, it 
means the world just ended.

	And we will begin with Ms. Graham Keegan.

TESTIMONY OF MRS. LISA GRAHAM KEEGAN, CHIEF EXECUTIVE 
OFFICER, EDUCATION LEADERS COUNCIL, WASHINGTON, D.C.



Ms. Keegan  XE "Ms. Keegan"  .  Thank you, Mr. Chairman and members.  I appreciate being 
here on behalf of the Education Leaders Council, which is an organization of State school chiefs, 
State board members, and governors' offices and other officials in education who are committed to 
standards and accountability, to choice in education, and to the quality of teaching in the nation.  
We are also partners with the National Council on Teacher Quality in a project that Secretary Paige 
initiated with us for the development of an American board for teacher certification, which will 
provide a new route for the country for teachers to come into teaching, for us to be able to 
guarantee that young teachers, at least prospective teachers, know their content, know the teaching 
instructional skills that they need to know to be a beginning teacher, and then we will heartily 
recommend to States and follow them through mentoring, mentoring that for us must include the 
quality of the instruction as evidenced in student achievement.  So the American Board will follow 
all of our candidates and see how their standards perform.

	The American Board was put together originally by grant from Secretary Paige, who, as 
you know, has been a strong advocate for bringing quality teachers into the classroom, for knowing 
whether the teachers we have in the classroom are producing quality in terms of students.  We 
brought together some of the Nation's most thoughtful advocates of teacher quality, of content 
specialty, and created the standards on which these tests are based.  These tests will be available for 
elementary education starting at the end of August of this year for States to adopt and use as one 
route to certification.

	The American Board will not require that the candidate must go through a college of 
education.  We will require a bachelor's degree in content.  We will require absolutely that the 
candidate has been trained and skilled and has the knowledge and instructional technique required 
to be in the classroom.  However, we will not require the traditional route through a college of 
education.

	We believe this is important because no preparation for teaching is easy or efficient or 
quick.  It simply isn't possible.  To know the content that one has to impart to students is difficult.  
Whether that be through a math preparation program, an English language arts preparation, or 
science preparation, all of those studies are extremely difficult at the university level.

	It is also challenging to acquire the kind of skills that you must have to be able to manage a 
classroom, to understand how students learn, to respond to all groups of students, and primarily to 
have the high expectation which we believe is incumbent in this endeavor that all students in the 
classroom can and will learn the necessary skills.

	We are in a new environment, thank goodness, of no child left behind, of accountability, of 
a belief in the Nation and an insistence that all children, no matter the way they look, how much 
money they have, or their ZIP code, all of them must be entitled to a certain amount of essential 
knowledge. In order to do that then, in order to teach that knowledge, one must understand that 
certain types of instruction are necessary.

	There is no question that the predominant view in the preparation of teachers in America 
today is that discovery learning and that students sort of exploring and coming up with the things 
that they need to know has been the predominant view, in addition to the fact that we have far too 
much belief that there are certain students who cannot.  At the Education Leaders Council we make 
a weekly event of pointing out a quote from somebody who shares with us the reasons that some 
school cannot succeed because of the nature of the students in the school.  We simply must get 
beyond a moment in which we blame a lack of improvement on the students themselves.  It is us, it 
is our responsibility.  It is an adult responsibility that we think can be answered in the process for 
certification that States and the nation allow.

	What we believe is that there ought not to be simply one method, one route to the 
classroom; that what we need to judge is whether or not the person who is coming to us as a 
prospective teacher has the skills that they need to be a beginning teacher.  No teacher who walks 
into a classroom for the first time is prepared for what they will face, particularly in middle school, 
where my son is right now.  It is a very trying, very expertise-laden job to manage 12-year-olds, 
13-year-olds, 14-year-olds who come to us with these really big backpacks and believe we will fill 
it up with the knowledge that they need.

	It is a difficult job, but it is also a job that must be learned in part based on what the teacher 
knows, and how they deliver that information.  There must be unequivocal ability on the teacher's 
part of the content itself; they must know the subject material they are trying to impart to their 
student.  We have spent far too long on process.  It is not possible to teach what we do not know.  
So that needs to once again come to the forefront of this endeavor.

	In addition, we must change our emphasis so that we look at exactly how far students 
progress and not simply whether or not we have provided process, but whether we provided 
success.

	Thank you very much, Mr. Chairman.


WRITTEN TESTIMONY OF MRS. LISA GRAHAM KEEGAN, CHIEF EXECUTIVE 
OFFICER, EDUCATION LEADERS COUNCIL, WASHINGTON, D.C.-SEE APPENDIX B


Chairman McKeon  XE "Chairman McKeon"  .  Thank you. 

	Ms. Haycock.

TESTIMONY OF MS. KATI HAYCOCK, DIRECTOR, THE EDUCATION 
TRUST, WASHINGTON, D.C.


Ms. Haycock  XE "Ms. Haycock"  .  Mr. Chairman, Mr. Vice Chairman and members of the 
committee, for the last 10 years we have been engaged in this nation in a war of competing claims 
about teacher preparation.  On one side are those who argue that teachers need no special 
preparation in education skills.  On the other side are those who argue that teachers, like other 
professionals, need special preparation, and to place anybody else in a classroom is criminal.

	You just heard one side of that argument.  When I am done, you will hear the other.  In fact, 
I worried a little bit about my placement between these two.  Like most matters, however, the truth 
is probably somewhere in between.  But the very sad fact is that we do not actually know which 
parts of whose claims are accurate.

	Fortunately, while that lack of good, solid information has limited what States can do to 
respond to the bold action you asked them to take in No Child Left Behind, the truth is that you 
could set in motion in Title II, the Higher Ed Act, a process that would actually answer these 
questions once and for all.  But first a brief reminder of why that is so important.

	As all of you know, we used to believe in this country that what kids learned was primarily 
a function of them and their families, and that kids who grew up in poverty or in difficult home or 
neighborhood circumstances would not learn no matter what we did.  There was, of course, a lot of 
new research that turns those ideas upside down.  It says unequivocally that some things that 
schools do matter hugely in whether kids learn or whether they don't, and the thing that 
unquestionably matters most is good teachers.

	Now armed with that knowledge, you set into motion in No Child Left Behind a process for 
refocusing schools and districts and entire States, in fact, on improving teacher quality and in 
making sure that poor children got their fair share of our strongest teachers.  The Higher Ed Act, of 
course, is your opportunity to refocus higher education on that objective as well.  You started that 
work in 1998.  Now is your opportunity to move a bit further.

	What changes might you consider?  The first thing that is important to understand is that 
whether teachers come through schools of education or whether they come through alternate routes 
and, therefore, from academic departments, whole universities are responsible for the preparation 
of teachers pre-K through high school.  Yet in a 1998 act you held accountable only the education 
schools.  So what could you do about that?

	Number one, you could require States to ask arts and science faculty members to actually 
review the standards and assessments for teachers to make sure that they are up to the level of 
knowledge that is necessary to get children to State standards.

	Number two, you could make sure that when candidates fail licensure examinations in 
mathematics, for example, that the mathematics department that did their education is actually held 
accountable as well, not just the education school.

	Number three; you could target the dollars in your State and partnership grants to engage 
not just education schools, but academic departments as well in tackling two of the biggest 
problems that we face.  Number one is both the quantity and the quality of mathematics teachers, 
and number two is both the quantity and the quality of our pre-K teachers.

	Secondly, let me go back to those vexing questions about what really matters and what does 
not.  There, in fact, is a way to answer those questions.  It is called value-added assessment, and I 
would strongly urge you to make, as a condition of providing a State grant or a partnership grant, a 
requirement that districts or States install value-added systems or the rough equivalent of those in 
order, in other words, to understand what actually matters in raising student achievement and what 
does not.

	Third and finally, the matter of who teaches whom.  No matter how you measure teacher 
qualifications in field, out of field, certified, uncertified, major, non-major, or actual experience, 
poor and minority children nationally get way more than their fair share of our least well-qualified 
teachers.  Again, you focused real attention on that on the K-12 side in No Child Left Behind.  The 
question is how you come back around and reinforce that in the Higher Education Act.

	There are two things in particular that would help. Number one, loan forgiveness helps, 
especially when it is highly targeted to the highest poverty schools, and when it is more generous 
earlier than it is now.  The current amounts are not sufficient to provide an incentive to those who 
want to teach in our highest poverty schools.

	Secondly, it would also help to focus higher education energies if, number one, States were 
asked to include in their accountability systems for higher education institutions not just the pass 
rate measures, but measures of improvement in a number of teachers they produce who actually go 
to teach in high poverty schools; and secondly, to do what some States have already done, and that 
is include in the accountability measures targets just as you have for No Child Left Behind to make 
sure that every group of prospective teachers passes a licensure exam in adequate rates.  Thank 
you.


WRITTEN TESTIMONY OF MS. KATI HAYCOCK, DIRECTOR, THE EDUCATION TRUST, 
WASHINGTON, D.C.-SEE APPENDIX C

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

Dr. Wise.


TESTIMONY OF DR. ARTHUR E. WISE, PRESIDENT, NATIONAL 
COUNCIL FOR ACCREDITATION OF TEACHER EDUCATION, 
WASHINGTON, D.C.


Dr. Wise  XE "Mr. Wise"  .  Mr. Chairman, members of the committee, I am honored to be here.  
NCATE is the accrediting agency for colleges that prepare the nation's teachers.  NCATE and 
Congress, through Title II of the Higher Education Act, share the important goal of improving 
teacher preparation.  I am here today to suggest that we can more effectively achieve the goal 
together.  Rigorous teacher preparation is key to ensuring that no child is left behind.

	Title II brought teacher testing out of the policy shadows and into the sunlight where it is 
now playing a forceful role in upgrading teacher quality and teacher preparation.  Education 
schools are now required to report how many of their teacher candidates pass State licensing tests.  
In response, education schools and States have changed admissions and graduation requirements.  
They no longer graduate teachers who fail the test.  This federal mandate has engaged NCATE to 
incorporate test score results into its accreditation decision.

	The NCATE is voluntary.  Its decisions currently apply to 665 institutions or 55 percent of 
the 1,200 teacher preparation institutions in the U.S.  NCATE institutions prepare over two-thirds 
of all the new teacher education graduates.  In the last decade 48 States have entered partnerships 
with NCATE.

	NCATE now requires that education schools not only meet State-mandated pass rates, but 
also a high national pass rate; namely, that at least 80 percent of all candidates pass tests of 
academic content knowledge.

	Since the enactment of Title II, NCATE has also been working with one national testing 
company to ensure that its teacher licensing tests are aligned with rigorous professional standards.  
NCATE has just reached an agreement with that company to establish a high national benchmark 
on its teacher licensing tests.  This unprecedented benchmark will provide a beacon to States that 
wish to upgrade standards.

	As important as these steps are, content knowledge is only one indicator of readiness to 
teach.  NCATE believes in a comprehensive approach to the development and assessment of 
teacher quality.  In 2001, NCATE launched its new performance-based accreditation system, which 
requires multiple sources of evidence that candidates have not only content knowledge, but also the 
ability to teach it so that students learn.

	In addition to meeting new test score requirements, education schools must take these steps:  
They must prepare new teachers to teach to today's higher standards.  They must prepare new 
teachers to teach the great diversity of students who are now in America's classrooms.  They must 
prepare new teachers to use technology effectively.  They must offer more intensive supervised 
experiences in schools, and they must track progress of new teachers from admission to graduation 
and into the first years of teaching.  These new requirements are strengthening the programs that 
education schools offer.

	Based on what NCATE has learned from working with education schools, I have four 
recommendations.  First, as I have described, NCATE carries out a comprehensive review of the 
institution, its programs and its candidates; therefore, Congress should revise section 207 of Public 
Law 105-244 to allow NCATE-accredited institutions and States to use NCATE accreditation as a 
substitute for all or some reporting requirements.

	Second, Congress should amend section 202 to create incentives for States to implement 
comprehensive licensing assessment systems that include measures of content knowledge, teaching 
knowledge and skill, and the ability to teach so that all students learn.

	Three, Congress should continue to encourage the development of alternate routes to 
licensing, but should tighten the definition of highly qualified teacher to preclude those who are 
still in training.  The term "highly qualified" should be reserved for those individuals who have 
mastered a rigorous program of study and who have met all State licensing requirements.

	Finally, Congress should amend section 203 to encourage professional development schools 
similar to teaching hospitals for medical education.  These innovative institutions hold particular 
promise for preparing a new generation of teachers for urban schools.  Thank you.


WRITTEN TESTIMONY OF DR. ARTHUR E. WISE, PRESIDENT, NATIONAL COUNCIL 
FOR ACCREDITATION OF TEACHER EDUCATION, WASHINGTON, D.C.-SEE 
APPENDIX D


Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

Dr. Kennedy.


TESTIMONY OF DR. LOUANNE KENNEDY, PROVOST AND VICE 
PRESIDENT FOR ACADEMIC AFFAIRS, CALIFORNIA STATE 
UNIVERSITY, NORTHRIDGE, NORTHRIDGE, CALIFORNIA


Dr. Kennedy  XE "Ms. Kennedy"  .  Mr. Chairman, Mr. Vice Chairman, members of the 
Subcommittee on 21st Century Competitiveness, ladies and gentlemen, we are pleased to be here as 
recipients of a Carnegie grant, which you had asked us specifically to speak about, as we look to 
moving further on our reform of teacher preparation.

	Research has shown that the most important factor that impacts student achievement in the 
K-12 classroom is the quality of the teacher, even among disadvantaged children.  And clearly, 
when students are not achieving, we need to look at the way we are preparing the teachers.

	What this grant has made possible for us is to focus the attention of members of six 
different colleges, including the College of Education, as has been discussed earlier, to combine 
together to work together to look at the curriculum that is used in preparing the teacher rather than 
having them separated as they had been in the past.

	We began this project actually with a Title II grant that developed and integrated teacher 
preparation program, integrated between arts and sciences and education, and aligned with the 
California standards.

	The work under the grant takes as a dependent variable looking at every possible way in 
which we can evaluate pupil performance in the classroom and tie that back to the value added by 
graduates of our program.  It has required us to look at evidence of what constitutes good teaching.  
It requires us to watch how that occurs not only in our own classrooms, but also in the K-12 
classrooms.  We are partnering now with teachers in the schools, principals, the Achievement 
Council, and the faculty that we have involved right now involves probably between 40 and 60 
individuals, one group looking at evidence, one group looking at partnering with arts and sciences 
in education, and the third group looking at the measures that will be used as we make possible 
having teachers become a clinical practice profession.  They are being and we are modeling this 
program on the way in which doctors have been prepared.

	We follow the teachers through the first two years of their teaching and make possible the 
ability for them to identify the areas where they feel weakest and be able to produce the kind of 
learning, whether it is in pedagogy or in the content area or in what we now refer to as pedagogical 
content knowledge, because it does bring the two together, and it will be able to put together 
quickly the kind of programming they need in those first two years.  We need teachers to teach well 
and students perform well, but we have to provide the support to make that possible.

	This work also now has gone in two different directions as well.  We are opening a high 
school in 2004 that will be a teaching academy.  It is a joint venture with the Los Angeles Unified 
School District.  You were there for the transfer of the land, as I recall.  And this is a teacher 
academy that has two parts to it that I think are really very special.  One is we are now hiring K-12 
teachers with doctorates in content areas into the arts and sciences colleges, and we are hiring arts 
and sciences people as well as K-12 teachers into the college of education, and all of these 
combined together to work to develop our curriculum and to test the models that we are using to 
see whether it is really resulting in the child having a better performance at the end of the time with 
that teacher.

	We are using standardized tests, normative tests, but our long-time objective is to establish 
an agreed-upon quality of student work that anyone can look at and say that is high-level 
performance in fourth grade math, writing, or English, or any subject whatsoever.

	That high school opened in 2004.  It will be a teaching academy, also focused on health 
sciences, and also focused on entertainment and communications.  The three strands, the high 
school of 800, the three stands will be in these areas, and they are all geared toward careers so that 
we encourage students to learn the material, and the curriculum will be designed around learning 
that material as it applies to going on to higher education, but also to career, which is an important 
aspect, particularly getting kids to study mathematics and sciences.

	We also have a full-inclusion elementary school, the CHIME school, in which we are able 
to demonstrate in K through 8 that full inclusion is possible, that every child can succeed.  We are 
working with a number of different agencies, including the Achievement Council, the schools and 
our own six colleges.  We think we have a model that will be, can be replicated.  We started this 
with a Title II grant.  We brought together the faculty there.  Those kids are now graduating.  They 
are out, able to show that a good teacher matters, it can be produced, and that results in high pupil 
performance.  Thank you.

WRITTEN TESTIMONY OF DR. LOUANNE KENNEDY, PROVOST AND VICE PRESIDENT 
FOR ACADEMIC AFFAIRS, CALIFORNIA STATE UNIVERSITY, NORTHRIDGE, 
NORTHRIDGE, CALIFORNIA-SEE APPENDIX E

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

Dr. Robbins.

TESTIMONY OF DR. JERRY ROBBINS, DEAN, COLLEGE OF 
EDUCATION, EASTERN MICHIGAN UNIVERSITY, YPSILANTI, 
MICHIGAN


Dr. Robbins  XE "Mr. Robbins"  .  Mr. Chairman, Congressman Kildee, ladies and gentlemen 
of the committee, we appreciate this invitation very much.  I am not here to speak for or against 
any particular legislation, but instead to give you a case study of a teacher preparation program at 
which most of the criticisms that have been directed in recent times do not apply.

	We are big.  We are trying to be very good.  We are very well connected with our 
constituencies.

	As the vice chair has graciously recognized, we are indeed the nation's largest producer of 
educational personnel.  That is about 2,000 people per year.  That includes about 1,000 new 
teachers per year.  This number will be increasing rapidly as our admissions have gone up 
approximately 44 percent in the past three years.  We are committed to addressing the perceived 
teacher shortage problem.

	We are working on being good.  We are accredited by NCATE, approved by our State 
education agency, and officially recognized by 16 subject area organizations.  We are rigorously 
reviewed by each of those every five years.  All of our prospective teachers complete an academic 
major and minor that is at least as long and rigorous as that for anybody else.  Every teacher must 
take and pass the State's required test in the subject fields before being recommended for licensure.

	I want to dispel any concern that the teachers prepared at our place are not at least as well 
prepared in their discipline as anybody else at our institution. As a result, our graduates are highly 
recruited.  They are very heavily recruited.  Each can have his choice of three or four opportunities 
just from our annual job fair.

	Our alumni have national recognition.  One of them is former Congressman Carl Pursell 
from Michigan.  We have 24 recipients of the 25,000 Milken Award, a national teacher of the year, 
national superintendent of the year, and many executives and presidents of national education 
organizations.  I am most pleased to recognize today one of our recent alums who is in the 
audience.

Mr. Sergio Garcia came to EMU several years ago from south Texas.  He completed his 
requirements this past December with a major in one of the sciences and a minor in bilingual 
studies.  He is temporarily teaching science while he considers a number of highly attractive 
permanent job offers.  After he was admitted to our institution, he had to complete the same set of 
general education requirements that anybody else did at our institution, and all of that course work 
is in arts and sciences.  He became eligible for and was admitted to our initial teacher preparation 
program, which is not a trivial screening, because each year more than 200 students who make 
formal application are not admitted.  Mr. Garcia was one of the successful ones.

He completed his major, a strong pattern of course work in the sciences, and his minor, and 
in his professional studies he took a sequence of courses that qualitatively met every requirement 
set by NCATE at the Michigan Department of Education and specialized agencies.  In the 
professional studies everything that has been called for in the reform reports in recent years has 
been included.  Teaching the technology, classroom management, assessment and evaluation, 
working with students with disabilities, special methods, reading in the content areas, and on and 
on and on, these are all part of our preparation program.

Along the way he had three structured pre-student teaching field experiences to apply these 
new skills, and then to culminate his program after further screening, he was placed with a highly 
qualified cooperating teacher for a full-time, full-semester student teaching experience.

	This, along with the pre-student teaching field experiences, does provide extensive 
opportunity for our teachers-to-be to apply their knowledge and skills under careful supervision.

	Because a large portion of our students work and commute to classes, we offer professional 
course work from 8:00 to 10:00 each weekday, on Saturday, on Sunday, online and in six locations 
in southeastern Michigan.  In recent times we have admitted to our teacher preparation program 
about 500 career changers per year, and they now make up about one-third of our student body.  
These are people with at least a bachelor's degree, often a graduate or professional degree, who 
have decided to become teachers.

	We are involved in numerous projects with urban teachers in Detroit and in Flint.  We are 
well connected with our education community through consortia with other institutions, with 
involvement with schools in a wide variety of ways, special partnership schools, and special 
funding from State and federal agencies that permit us to engage ourselves in many ways.

	We are very proud of our work as the university partner for the implementation of the 
Comer schools and Family Initiative in Detroit, where we have been working with 24 inner-city 
schools.

	We are among a relatively small number of institutions in the country that collectively 
prepare most of the new teachers.  We are committed to quality.  Our new teachers are well 
prepared in general education, in the content areas they will teach, and in appropriate strategies for 
bringing about learning in all children.  Our alums are highly successful and much recognized for 
their competence.  Our new teachers are highly recruited.  The feedback that we get is quite good.  
We have almost every type of external recognitional quality that is available.  We intend to remain 
well connected.

	We agree with the subcommittee that teacher-training programs are the key to improving 
effective K-12 education.  Thank you for the opportunity.


WRITTEN TESTIMONY OF DR. JERRY ROBBINS, DEAN, COLLEGE OF EDUCATION, 
EASTERN MICHIGAN UNIVERSITY, YPSILANTI, MICHIGAN-SEE APPENDIX F

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.

Dr. Coppin.



TESTIMONY OF DR. JOYCE R. COPPIN, CHIEF EXECUTIVE, DIVISION 
OF HUMAN RESOURCES, NEW YORK CITY DEPARTMENT OF 
EDUCATION, BROOKLYN, NEW YORK


Dr. Coppin  XE "Ms. Coppin"  .  Good afternoon, Chairman McKeon, Ranking Member 
Kildee, Congressman Owens, Congresswoman McCarthy and Congressman Bishop.

	I oversee 80,000 teachers in 1,200 schools and administer the largest teacher recruitment 
and preparation program in the nation.  Thank you for the opportunity to discuss the reauthorization 
of the Higher Education Act and our ongoing efforts to attract, prepare and retain high-quality 
teachers.

	For the current school year, the New York City Department of Education set a goal of 
hiring only certified teachers for positions in elementary schools, social studies and English.  We 
accomplished this objective and are now a step closer to satisfying a new State requirement that all 
teachers in our schools be certified by September 2003.  We were also able to satisfy the NCLB 
standard of hiring only highly qualified teachers in our Title I schools.  Last September, I attended 
a ceremony at the White House where President Bush highlighted our efforts to meet these 
requirements.

	Securing high-quality teachers for all of our classrooms remains a challenge.  We must hire 
11,000 teachers by this September, knowing that as many as 4,000 current teachers may fail to 
meet the new State regulation.  The supply of new teachers in New York State is not keeping up 
with the demand.  Colleges and universities are not producing enough teaching candidates in math, 
science, bilingual and special education.  For example, the city could hire every newly certified 
math teacher in New York State and still could not fill its 1,000 mathematics vacancies.

	The department has worked aggressively to broaden the pool of qualified individuals who 
want to become teachers.  Our efforts have increased the percentage of newly hired teachers with 
appropriate State certification from 43 percent in September 2000 to 86 percent today.  This 
increase can be attributed to the following:  The establishment of the Teaching Fellows Program, a 
closer working relationship with colleges and universities, an increase in teachers recruited both 
nationally and abroad, a new teachers' contract offering more competitive salaries, and a productive 
relationship with the UFT.

	Teaching Fellows addresses the fact that traditional teacher preparation programs do not 
produce enough qualified teachers.  The department, with partnering IHEs, tailored the program to 
prepare teachers to succeed in urban schools.  It seeks highly qualified professionals who want to 
teach in our lowest-performing schools.  For this September, this coming September, 3,000 
candidates were selected from among 20,000 applications.  Our current fellows include former 
doctors, lawyers, Wall Street financiers, judges, and advertising executives.  Over the last three 
years, 3,300 fellows have entered the program, and 2,800 are still teaching in these schools, 
including businessmen or Congressmen.

	Because school districts are solely accountable for student performance, we must play a 
lead role in teacher preparation programs.  Congress should recognize the importance of school 
districts in improving teacher quality and update how Title II allocates funds.  First, allow 40 
percent of Title II funds to be allocated to partnerships between high-need LEAs and IHEs, with 
LEAs as the lead applicant and fiscal agent.  This capacity would support successful district-
administrated programs such as Teaching Fellows.

	Second, 40 percent of the Title II funds should be allocated to partnerships between a high-
need LEA and IHEs to administer three service teacher preparation programs, with the IHE as the 
lead applicant.

	Third, we recommend the remaining 20 percent be authorized for recruitment purposes.  
These revisions will miss their mark unless these funds are better targeted.  For example, in New 
York State, the White Plains School District's per pupil expenditure is $16,000, yet it qualifies as a 
high-need LEA because exactly one of its schools meets the current definition.  New York City 
also qualifies, with 900 of its 1,200 schools enrolling 50 percent or more children eligible for 
school lunch, and spends less than $9,000 per pupil.

	We recommend defining a high-need LEA as a district that serves at least 10,000 children 
or 30 percent from below the poverty line.

	Finally, many prospective teachers are questioning their entry into this profession as they 
see districts across the nation eliminating teaching positions to meet budget cuts.  While our current 
budget situation is dire, we have not cut any teaching positions; however, other districts have not 
been as fortunate.  Revising HEA in the ways I have suggested and increasing its authorization will 
increase the supply of highly qualified teachers.  Congress should also make education funding a 
priority so that struggling schools have the resources needed to educate children during this time of 
State and local budget cuts.

	I thank you.


WRITTEN TESTIMONY OF DR. JOYCE R. COPPIN, CHIEF EXECUTIVE, DIVISION OF 
HUMAN RESOURCES, NEW YORK CITY DEPARTMENT OF EDUCATION, BROOKLYN, 
NEW YORK-SEE APPENDIX G

Chairman McKeon  XE "Chairman McKeon"  .  Thank you very much.

I am going to hold my time until the end and at this time yield the time to Mr. Cole from 
Oklahoma.

Mr. Cole  XE "Mr. Cole"  .  You caught me unawares, Mr. Chairman.  I was going to follow 
your lead.

	If I may, I would like to ask a couple of questions.  This whole issue of teacher quality 
interests me greatly.  Let me ask you, each of you, to address in turn something maybe a little bit 
beyond what you testified to.

	One of the great difficulties I have found in the structure we have in education now is 
simply rewarding quality when you find it.  We have a significant resistance to any kind of concept 
of merit pay, significant resistance to looking at educators who are able to increase dramatically the 
scores of children that they are dealing with.  So I would like to ask you if there are some reforms 
on the back end of this system so that after we actually found quality, we found a way to reward it, 
both to encourage other people to emulate it, and to encourage people that displayed exceptional 
teaching ability to stay in the profession longer and, frankly, to stay in the classroom as opposed to 
move into the administrative ranks where most of the upward mobility in education tends to be.

Ms. Keegan  XE "Ms. Keegan"  .  Mr. Chairman, Congressman Cole, it is a perfect question, 
and I think that without any question whatsoever we have got to change the contractual 
arrangements that we have for teachers.  In most professions what we do is not simply pay 
somebody more for a better job, we pay them more, and then we add more responsibilities.  There 
is a very constrictive contract at play, as you know, in most school settings so that if you want to 
evolve a system wherein great teachers are not only teaching their students, but also mentoring 
other teachers, you cannot do that readily.  You cannot pay that individual more for more of her 
time after school, et cetera, because the contract is prohibitive for that.  We really are going to have 
to find new ways to do that.

	We work with the Milken Family Foundation on something called the Teacher 
Advancement Program that attempts to get around this, but until we are open to those kinds of 
things, I don't think we will have the mentors present that are making enough money to make it 
worth their while to make this change because it is very difficult to do.

Ms. Haycock  XE "Ms. Haycock"  .  Just a quick addition to that.  I happen to share your bias.  
In my estimation at least, if you are going to transform an organization and make it more 
performance-oriented, you need to recognize employee performance when you do that.  The great 
problem with our efforts to do that, however, is we have not had a fair way to do that.  It has been 
kind of principals pick or department chairs pick.  It has not been rooted in analysis of who actually 
is successfully raising student achievement and who is not.

	So I bring you back to what we talked about earlier, and that is the importance of providing 
incentives for States and school districts to put value-added systems into place so that the things 
that you need to do to reinforce and reward performance are actually based in a fair and impartial 
measure of that rather than on, let us say, the principal selection.

Mr. Cole  XE "Mr. Cole"  .  Let me ask if I can get you to expand, anybody can pick on this in 
addition as you go on down, what would be your opinion of peer review in this process, and I mean 
literally from people that are recognized as accomplished educators, accomplished teachers, and 
not obviously drawn from the same school where they have any sort of personal ties with the 
individual, but some way to interject, because, again, I understand the concern if I'm a teacher 
about all of this process being in the hands of administrators and playing of favorites in rewarding 
and punishment.  That is a legitimate point.  But at the end of the day there has to be some way in 
which quality can be recognized and rewarded, and so it can be encouraged. 

Mr. Wise  XE "Mr. Wise"  .  If I may, I have actually studied that in my past life at the RAND 
Corporation, and we have found that peer evaluation systems can work; in fact, they can work 
especially well when it comes to working with teachers who are in difficulty.  These peer 
evaluation systems can be used to strengthen the capacity of some teachers, but they can also be 
used as a means of encouraging individuals to leave the profession.  And we can cite some 
examples of that if you would like.

	I think the general idea of our system right now is highly inefficient in its use of human 
resources.  I believe that we should have something like differentiated roles and responsibilities, 
career ladders, team teaching.  Having one adult for every 25 children actually keeps us quite 
confined in terms of what we are able to do, both in terms of training and induction and in 
rewarding people who show superior competence on the job.

Ms. Kennedy  XE "Ms. Kennedy"  .  I think one of the issues in order to provide for this reward 
structure is to understand also that it is the school itself that creates the environment for the 
professional development to take place.  The evaluation by a peer can be both an evaluation and a 
coaching of that person.  To simply put some kind of a test or some other mechanism in without 
providing the opportunity for the teacher to be the best that they can be can be a problem as well.  
And again, the measures that the value added--where did the child start at the beginning of the year, 
what are the opportunities and the climate in the classroom with that teacher as well as the 
professional development in the school itself can make a real difference.  And when those pieces 
are in place, the reward structures have to be there for all those who participate in the education of 
that child.

Mr. Robbins  XE "Mr. Robbins"  .  Congressman Cole, the only thing that I would add to the 
many fine comments that have been made here, and I do agree with the fact that a peer review 
system can be made to work if it is established properly, I would just add on the reward side of it to 
keep in mind that many of the people who go into teaching are rewarded through psychological 
rewards as well as tangible rewards.  This means that we probably should be establishing more 
kinds of recognition of people, improving their working conditions and a number of factors of that 
sort that may be important to many people.

Ms. Coppin  XE "Ms. Coppin"  .  We have in the New York City Department of Education 
talked about merit pay, and it is still under discussion.  The previous speakers talked about all of 
the issues that are involved.  But can I say that we have utilized many different approaches for 
recognizing those teachers who are outstanding.  They serve as mentors, coaches, and staff 
developers.  Some run teacher centers.  And in many programs we have outstanding teachers 
working with the colleges and universities as adjuncts.

	In addition, the peer review system that we have allows teachers to observe each other and 
rate each other's lessons.  We also have a peer intervention program where experienced teachers 
work with those who are weak and about to receive adverse ratings.  Both of those programs work 
very well.

Mr. Cole  XE "Mr. Cole"  .  If I can ask one more question without abusing my time?  If I am, 
that is fine.  I can ask it later.

Chairman McKeon  XE "Chairman McKeon"  .  Your time is used.  The chair now recognizes 
Mr. Kildee for five minutes.

Mr. Kildee  XE "Mr. Kildee"  .  Thank you, Mr. Chairman.  I just was thinking, looking around 
this room at the witnesses and the audience, that I am convinced that there is no meeting on Capitol 
Hill taking place right now that has more impact upon the future of our country than this meeting 
right here.  The preparation of teachers is extremely important.  Even before the time of Socrates.  
Right?  We think of him.  But it is really so important for our future.  So this is an extremely 
important meeting, and all of you are involved in that and you can take certain pride in that and a 
certain deep sense of responsibility on that also.

	I am going to direct this question primarily to Dr. Robbins, but any of you may join in.  Dr. 
Robbins, I know you are doing some special work in Flint and in Detroit; Flint being my 
hometown.  Certain school districts have high levels of children from low-income families, 
sometimes a high concentration.  I think every school in Flint is a Title I school.  And, also, certain 
areas have children from families who are struggling to be functional families.  How can schools of 
education prepare teachers to provide instructions to children who may be from dysfunctional 
families or families just barely able to function?  What can the schools of education do to prepare?

	You know, if you teach in certain areas of Michigan, you have very functional families, all 
the things that can help a child.  In other areas, much of that is lacking.  How can you help prepare 
your teachers to deal with this?

Mr. Robbins  XE "Mr. Robbins"  .  There is not an easy answer to your question, Congressman 
Kildee.  And every State represented in the room has urban areas that are suffering from the kinds 
of problems that exist in Detroit and Flint and many other places.

	Probably our most positive experience along this line has been 10 years of experience in 
Detroit with the generous funding of the Skillman Foundation of Detroit to serve as the university 
partner for an implementation of the Comer Schools and Families Initiative.  We have learned from 
that, that school reform in an inner city setting is not something that occurs quickly or easily.  It 
takes a lot of time to make it happen.

	We have discovered that this works best when there is stability with the school building 
leadership.  When there is stability with the teaching faculty so that you can set goals, you can 
address those goals over time, you can set out strategies to train teachers, train parents, train other 
school workers, and train the community in how to do things better for the children that happen to 
be involved in this poverty and other at-risk areas.

	We have also found that nothing works universally.  Things that work rather well in one 
setting are difficult to transfer somewhere else.  That is an area that requires I think a great deal 
more study to find things that can be made to work in other settings.  With a lot of effort and a lot 
of trial and error, and certainly the other States represented here can also give success stories using 
other models where they have been able to demonstrate great accomplishments under highly 
adverse circumstances, it can be done.

	There are some success stories.  We are proud of what we have been able to accomplish in 
several Detroit schools.  We are now working with Flint to try to bring some of those things that we 
have learned in Detroit to Flint as well.  And we will keep you posted on how well we do on that.

Mr. Kildee  XE "Mr. Kildee"  .  If you can provide us some information on this program in 
Detroit, that would be helpful to the committee.  Anybody else, any comments?

Ms. Keegan  XE "Ms. Keegan"  .  Mr. Chairman, Congressman Kildee, just at the risk of 
sounding like Katie, I think one of the best ways to take a look at who is really succeeding is to 
look at gain.  Oftentimes you will have schools whose scores overall are not good at all, but the 
gain that they have made from where those students started is remarkable.  Some of the best 
teachers in the country are in those urban settings.  If you only look at flat, static scores, they don't 
look very impressive; but if you look how far those children traveled in one year, it is a 
phenomenal distance.  The Education Trust keeps that data incredibly well.

	I think young people or aspiring teachers need to be taught what is possible, taught high 
expectations, and given examples such as the ones we just heard of where it works.  Too often they 
are convinced, somehow just sort of passively, that it is impossible, I am afraid.  And we have so 
many fabulous examples; thousands of schools all over the country have just beaten the odds.  And 
we need to hold those up as what is possible for these kids in difficult circumstances.

Mr. Wise  XE "Mr. Wise"  .  Mr. Chairman, Congressman Kildee, we have advocated 
something called "professional development schools" as a bridge between schools of education and 
particularly urban schools.  Most teachers, as a statistical matter, come from strong families.  We 
need people to go into the city to work with families that are not so strong.  The best way to learn 
how to do that is on the job, in a situation, a highly structured situation, working with people who 
have figured out how to do it.  And, hence, we believe in this model that will train people as they 
work in such communities.

Mr. Kildee  XE "Mr. Kildee"  .  Thank you, Mr. Chairman.

Mr. Chairman McKeon  XE "Chairman McKeon"  .  Thank you.  The Chair now recognizes 
Mr. Ehlers for five minutes.

Ehlers  XE "Mr. Ehlers"  .  Thank you, Mr. Chairman.

Dr. Wise, if I heard you correctly, you said that about two thirds of the teachers who 
graduate each year come from NCATE-accredited teacher colleges; is that correct?

Mr. Wise  XE "Mr. Wise"  .  That is correct, sir.

Mr. Ehlers  XE "Mr. Ehlers"  .  So that means one third of our teachers come from schools that 
are not accredited.  Is that something that this school that is hiring them is taking into account when 
they hire them?  Or has NCATE accreditation come to not mean very much to the schools that hire 
these teachers?

Mr. Wise  XE "Mr. Wise"  .  NCATE accreditation varies substantially from State to State; from 
some States which require it of all their institutions, to other States which leave it pretty much up to 
the institutions whether or not they wish to seek NCATE accreditation.

	The evidence is clear that NCATE adds value to those who attend those institutions.  We 
can cite statistics that reveal that, without question, individuals who graduate from NCATE 
institutions have a higher probability of passing State licensing exams, for example.

	As to whether or not school districts choose to favor or disfavor graduates from NCATE 
institutions, that does vary some at local option.

Mr. Ehlers  XE "Mr. Ehlers"  .  And are there States that simply require that all teachers 
should graduate from those?

Mr. Wise  XE "Mr. Wise"  .  Well, they don't necessarily require that all teachers graduate from 
them, but they do require that all institutions be accredited.  So, for example, we cite as an instance 
the States of North Carolina, Arkansas, and West Virginia mandated that all of their colleges be 
NCATE accredited.  They did that in the late 1980s.  Interestingly, by the mid-1990s, scores on the 
National Assessment of Educational Progress, which is a test of school children, climbed 
disproportionately in those States when compared to other States in the Nation.  That is just one 
fact.

Mr. Ehlers  XE "Mr. Ehlers"  .  I guess I was naive.  I thought virtually all teaching institutions 
were NCATE certified.

Mr. Wise  XE "Mr. Wise"  .  No, sir.  It is the one professional school on campus that has a 
choice about whether or not it wishes to be professionally accredited.  All other professional 
schools on campus are required to be accredited.

Mr. Ehlers  XE "Mr. Ehlers"  .  That is very strange.

	Let me ask you another question.  As part of the NCATE accreditation, what are you 
finding out with regard to science education in the various colleges and universities that produce 
teachers?  Are the requirements changing?  Are you asking that they be changed?  How do you set 
your standards on that score?

Mr. Wise  XE "Mr. Wise"  .  Well, we have a regular process of setting standards on a regular 
cycle.  We have upgraded our standards recently across the board.  We work closely with the 
National Science Teachers Association, which in turn works with most of the other major scientific 
organizations, so that our standards for science education do reflect contemporary thinking in 
science and effective science instruction.

Mr. Ehlers  XE "Mr. Ehlers"  .  Can a school receive your accreditation if it does not have 
adequate instruction for teachers in both the content and the pedagogical methods of teaching 
science?

Mr. Wise  XE "Mr. Wise"  .  Well, we consider as we accredit.  We accredit the whole college 
of education, and in so doing we look across the curriculum and generally expect to see strength 
across all offerings as we make our accreditation decisions.

Mr. Ehlers  XE "Mr. Ehlers"  .  So if a school is good in everything but not in science, will 
they get accredited?

Mr. Wise  XE "Mr. Wise"  .  It is conceivable that they could be, if that were the only area of 
weakness.  But I have not seen an actual example of something like that, but it is theoretically 
possible.

Mr. Ehlers  XE "Mr. Ehlers"  .  If a college or university were delinquent in the teaching of 
reading but were good in everything else, would they get accredited?

Mr. Wise  XE "Mr. Wise"  .  Well, that would be a more fundamental problem that would result 
in quite pervasive.

Mr. Ehlers  XE "Mr. Ehlers"  .  But that is my point.  My point is that they are equally 
fundamental, particularly in today's world, because the jobs of the future do require mathematics 
and science.

Mr. Wise  XE "Mr. Wise"  .  Well, I couldn't agree more, sir.  And of course as we look at 
elementary education, we do look very carefully at every component in the preparation of teachers.  

Mr. Ehlers  XE "Mr. Ehlers"  .  No.  My point is simply that that is today the greatest problem 
in teaching of all the subjects that are normally taught.  And it is a subject that has to be addressed.

Chairman McKeon  XE "Chairman McKeon"  .  Mr. Ehlers, your time has expired based on the 
questions that I responded to Mr. Cole.

Mr. Ehlers  XE "Mr. Ehlers"  .  Okay.

Chairman McKeon  XE "Chairman McKeon"  .  Okay.

Mr. Ehlers  XE "Mr. Ehlers"  .  May I just make a statement to conclude, then?

Chairman McKeon  XE "Chairman McKeon"  .  And you may also submit questions for the 
record that I am sure they would be happy to answer.

Mr. Ehlers  XE "Mr. Ehlers"  .  This would be a quickie.

	In addition to the merit pay issue, I think you ought to establish a practice in academic 
salaries of meeting the market.  We live in a free market society.  In every instance, employers try 
to match the salaries that teachers could get elsewhere.  We are losing the best science and math 
teachers because they can make twice the money elsewhere.  They don't expect to get that much 
from the schools, but there has to be a differential in order to keep the good teachers in the schools.

	Thank you.  Thank you, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.  The Chair now yields five minutes 
to Ms. McCarthy.

Mrs. McCarthy  XE "Mrs. McCarthy"  .  Thank you, Mr. Chairman.  And thank you for having 
this hearing.  I have to tell you, it has been fascinating listening to everyone.

	You know, I kind of look at teaching like nursing.  I was a nurse for over 30 years before I 
even came here.  And one of the first bills I introduced had to do with teaching and mentoring, 
because I think when I was a nurse we had mentors for over a year before we were allowed to be on 
our own, shall I say.  And that bill, you know, was accepted and I have been working on those 
programs ever since.

	The second part, as far as what we pay our teachers and actually what we pay our nurses, 
again correlate.  You know as well as I do that most of your teachers that work in New York City 
are constantly applying for positions out on Long Island only because we pay a heck of a lot more 
out there.

	The third point, when we talk about urban schools, I live in a suburban area; I have urban 
schools, and I have school districts that will pay $21,000 for each student versus someone else in 
my district that will be paying 9,000, 10,000 per student.  So the difference there.  But here we go 
back on to teaching.

	With our universities, especially with the teaching programs, do they test any of those that 
are going into the teaching field to see if they are actually qualified psychologically to go into that 
particular field and have the aptitude to be good teachers?  That would be one part of my question, 
because I know they still do that for nursing.  You might say it is different, but it is not, because we 
are dealing with, whether it is young people or sick people, you still have to have an aptitude to go 
into it.

	The other thing with nursing schools also, if nurses fail their State boards, and there is a 
certain percentage each year that repeatedly do not pass their State boards, then that school loses its 
accreditation to become a nurse or teaching nursing course.  Do we do that for our teaching 
programs?

	And I guess what I am trying to get at is, I probably agree that we should be looking for 
really highly qualified people to even go into the profession, and that is going to open up a whole 
round robin.  I will agree with Dr. Robbins, I would feel insulted as a nurse if someone gave me a 
merit pay because I am doing my job that I loved.  And I think most teachers hopefully are in 
teaching because they love what they do.  Other awards, fine.  I agree with that.

How are you going to single out?  How is a teacher in Great Neck that is getting 70,000, $80,000, 
and has highly qualified students to even start with, versus my Roosevelt School which is probably 
one of the worst schools in New York State, been taken over by the State, and you have a great 
teacher in there and the student has come up a lot but not to the standard of maybe a school right 
down the block that is in a richer district.  So I don't know whether giving somebody a pay is the 
answer to that.

	But if you could answer the questions on how do you get in to become a teacher?  Are there 
qualifications to even come in?  I mean, I hear constantly, I can't get in to architectural school, I 
can't get in to premed, I can't get in to so many other classes.  Get in to the teaching school; there 
are no qualifications, just about, and then go on to what you want to really do.

Mr. Robbins  XE "Mr. Robbins"  .  There are approximately 1,300 institutions in the country 
that are preparing teachers, and there are probably nearly 1,300 answers to your question there, 
because the requirements for admission are institution-specific.  There may be floors that are set by 
the State education agency, but institutions are at liberty to go above that or not go above that as 
they wish.

	However, I do believe that you will find that the quality teacher preparations in this country 
perhaps do not use psychological examinations, but they are concerned about the issue and they use 
proxies for that.  Some of the proxies that are used for this in the admissions process are the use of 
oral application processes.  You must appear before a panel of people to present yourself and you 
are asked questions and you are examined in terms of your interest in and fitness for teaching 
through that sort of thing.  Many other institutions have checklists.  As people move through the 
program, certain kinds of behaviors are watched for.  And if inappropriate behaviors emerge, then 
either remediation or removal from the program occurs.  There are many attempts to get at the sort 
of thing, the qualitative issues that you are mentioning.  This is fraught with legal difficulties, and 
people are very cautious about what they do.  But good places are making attempts to address those 
sorts of approaches.

Ms. Coppin  XE "Ms. Coppin"  .  Ms. McCarthy, you may be interested in knowing when I 
made reference in my testimony about having 20,000 individuals apply for positions as teaching 
fellows and we reduced it down to 3,000, it was done by just some of the things that you asked.  
There is rigorous examination, quote, unquote, that involves writing, teaching, and demonstration 
lesson.  I mean, you know, some oral interaction.  And the individuals must come before a panel of 
current teachers, some of whom have been outstanding teachers for years and years and years.  So 
in a way, the screening process to come into the alternative certification program in the city of New 
York has, I would say, almost higher standards to get into that program.  And we constantly 
monitor them as they go through the 2 or 3 years that they take to meet the certification 
requirements.

Mrs. McCarthy  XE "Mrs. McCarthy"  .  And I think that is what I am looking for, because 
obviously we are going to be dealing on the Federal level, which obviously means we are going to 
be dealing with every State in this country.  And I do know New York State has already put higher 
standards in, and yet how are we going to compare that to other States that might not have the 
money or the will to do that?  And that is hopefully something that we request to do here on the 
Federal level.

Chairman McKeon  XE "Chairman McKeon"  .  The lady's time has expired.  The Chair 
recognizes Mr. Gingrey for five minutes.

Mr. Gingrey  XE "Mr. Gingrey"  .  Thank you, Mr. Chairman.

	In a way, as a follow-up or continuation to Mrs. McCarthy's line of questioning, in my State 
of Georgia we have what the teachers like to refer to as property rights and others sometimes refer 
to as tenure.  And the way it works in Georgia is the teachers are hired, and their contract is a 
provisional contract for three years, during which time supposedly they are very carefully 
mentored.  And then a decision has to be made by the local school board and superintendent as to 
whether or not to offer that teacher a fourth contract.  And if that contract is offered and accepted, 
then that teacher has so-called property rights or tenure.  She or he is no longer an employee at will.

	And I have always felt that maybe because of this very short provisional period, during 
which time maybe they are not mentored very well, or maybe for the first year or two nobody has 
really paid that much attention to how they are performing in the classroom, and then all of a 
sudden you get close to the spring of that third year and it is time to offer that fourth contract, and 
nobody really knows.  And what happens is some bad teachers are offered that contract and then 
the system is sort of stuck with them.

	And then some good teachers, who maybe were sort of maybe like Michael Jordan.  I think 
Michael Jordan was a junior in high school before he made his high school basketball team.  I think 
he got cut his freshman and sophomore year.  Then I think many good teachers possibly are not 
offered that contract, and we are losing them.  And God knows we can't really afford to lose 
teachers.

	We want everybody ideally to go through a regular teacher preparation program.  But 
because of the demand, there are all these alternative methods of getting into the system.

	I want to ask each of you what your opinion is in regard to property rights and tenure.  And 
is a provisional period too short?  Should we lengthen that a little bit?  Maybe instead of three years 
it should be five years so that we don't miss the good ones and get stuck with the bad ones?  Not 
that there are very many bad ones, believe me.  I honor the teaching profession and most are doing 
an outstanding job.

	I would like you to comment on that, if you will.

Ms. Keegan  XE "Ms. Keegan"  .  Mr. Chairman, Congressman Gingrey, I would say that the 
best way to evaluate the quality of any teacher is to look at the progress of their students.  And I 
believe that more and more in this country that is possible, certainly in Georgia where there are 
assessments going on and there is that induction period.

	I think it is important, however, not to simply say or fall prey to the idea that any 
standardized program or any barrier exam that sort of sounds professional is the one that we want 
to apply to teachers.  We have the majority of our nation's teachers right now taking a test to 
determine whether or not they will be certified teachers that literally teaches them that whole 
language is a preferred instruction to phonetic instruction.  That is part of our system at this point.  
That is an easy one to pick on.  It also suggests that direct instruction is not as favorable as 
discovery learning.

	I think it is very important to back up and look at the content of these barrier moments as in 
at the end of three years, let us look at how the students performed for that teacher; not which 
classes she completed and does she have certifications that look good.  What was the result with the 
students?  And I think once we do that, we will start insisting on a different quality of preparation 
in the first place.

Ms. Haycock  XE "Ms. Haycock"  .  I may be incorrect about this, but I actually thought 
Georgia was the one place that moved to eliminate tenure.

Mr. Gingrey  XE "Mr. Gingrey"  .  It was put back in this year under a Republican 
administration, a Republican general assembly.

Ms. Haycock  XE "Ms. Haycock"  .  I mean, let me tell you what I think after a lot of work in 
schools.  We spend most of our time in schools around the country working with teachers, and in 
that experience we sometimes see absolutely terrific teaching.  Even in the lowest-performing 
schools we are always finding at least some terrific teachers.  But we are also finding an awful lot 
of teachers who have just given up on the kids.

	I actually think, as a fundamental principle, we have to agree that in teaching, like in most 
other work; you don't have a right to a job.  It is a right that you earn through producing student 
learning.

	So I would agree, in fact, that we have to revisit our old ideas about security of 
employment.  I think that is true at the higher education level as well.  Because if we are about 
producing student learning, then we have to be about evaluating whether employees are 
contributing to that or not.

	And that is why, again, I think it is so terribly important that we take the opportunity 
provided by No Child Left Behind to put fair measurement systems into place that actually look at 
whether young people are learning; where they now provide teachers that aren't producing that 
learning with the help that they need to grow, but act when they are not producing those gains.

Mr. Wise  XE "Mr. Wise"  .  I think there are many, many contributing factors to the problems 
that you describe.  One of them is the weakness of our licensing assessment process.  And we 
would urge that States be much more careful in looking at an individual's ability to teach, their 
content knowledge, their professional dispositions, and really whether they can take what they 
know and communicate it to children, and that that should be a much more serious part of the 
process for controlling access to teaching.

Chairman McKeon  XE "Chairman McKeon"  .  The gentleman's time has expired.  The Chair 
now recognizes Mr. Owens for five minutes.

Mr. Owens  XE "Mr. Owens"  .  Thank you, Mr. Chairman.  I have one question with two parts.  
Part one is and I think Dr. Robbins said you had either 500 people who went into teaching as a 
result of career changes this year or last year?  And Dr. Coppin was mentioning the fact that the 
teacher fellow program had a lot of people from outside the teaching profession, including Wall 
Street financiers, whose backgrounds you should have checked carefully before we put them in the 
classroom.  Don't take anybody from Enron or WorldCom.

	In times of recession, you have this kind of movement.  During the Vietnam War, anybody 
who went into teaching received a draft exemption.  We have had experience with people for 
various reasons go into teaching.  Can anybody speak definitively at this point about whether it is 
worth encouraging those programs, whether as we pursue a higher education reauthorization we 
should bother wasting resources on those kinds of programs?  Have they paid off, or do they really 
just produce a temporary jump in the number of people available for teaching; and quickly, as soon 
as conditions change, these people flee the profession for better paying jobs, and it is just not worth 
neglecting or using limited resources that can go somewhere else in terms of recruiting people who 
really want to teach, and finding ways to encourage and identify people whose aptitudes and 
outlook on life are such that they are going to stay in the profession?  

Yes.

Ms. Coppin  XE "Ms. Coppin"  .  Congressman Owens, we have found it to be very successful 
in the city of New York.  We currently have, as I said, 3,300 teaching fellows.  The rate of 
retention among the fellows is very similar to the rate of retention for individuals coming through 
traditional programs.  Additionally, the teaching fellows have accepted some positions in our more 
challenging schools.  They bring a different kind of background experiences to the youngsters, and 
it has enriched schools where we were unable to attract teachers, particularly in our schools that are 
considered the lowest performing.

Mr. Owens  XE "Mr. Owens"  .  That program is about how old, three years old?

Ms. Coppin  XE "Ms. Coppin"  .  That is right, three years old.

Mr. Owens  XE "Mr. Owens"  .  Does anybody else have a longer-term experience with 
alternative teacher recruitment?

Ms. Coppin  XE "Ms. Coppin"  .  Actually, that program.  But we have had different alternative 
certification programs, Peace Corps returnees program.

Mr. Owens  XE "Mr. Owens"  .  With high retention rates?

Ms. Coppin  XE "Ms. Coppin"  .  Yes.

Mr. Robbins  XE "Mr. Robbins"  .  And I would add to that, that of the 500 or so that we have 
been admitting per year for some years now, those people have made a very serious choice to 
change away from being a physician or a lawyer or an accountant or an engineer or a whatever to 
come into teaching.  They make that decision, they go through the appropriate preparation 
program, they go into teaching, they stay there, and they are good teachers.

Mr. Owens  XE "Mr. Owens"  .  My next question; I am sorry.

Ms. Kennedy  XE "Ms. Kennedy"  .  I just wanted to add that we have considered multiple 
pathways to the degree and the opportunities for students to enter in different parts of their lives 
rather than the traditional age.  And we find that the students are retained and retain themselves as 
teachers, and do well.  I don't have exact numbers on it, but I think it is making certain that there 
are alternate ways for them to do it or maintaining the high exit standards for letting them into the 
profession.

Mr. Owens  XE "Mr. Owens"  .  My next question is closely related but it is a little more 
difficult.  The percentage of African American college graduates entering teaching has gone down 
over the last 10 years.  When I graduated, at least 60 percent of the graduates were going into 
teaching.  Opportunities have opened up.  There are various reasons for this.  But put aside civil 
rights considerations, affirmative action, anything that is not related to teaching.  Just in terms of 
the scientific approach to teaching, pedagogically, psychologically, is it highly desirable to have 
these large numbers of youngsters in our urban schools who happen to be mostly Hispanic or 
African American go into a school which has a diversified staff, which has a greater percentage, 
not a lesser percentage, a decreasing percentage of minority on the staff but decreasing?  Is that 
going to hurt the efforts to improve education?  To what degree does that have an impact?  And is it 
great enough for us to make a special effort in our higher education reauthorization to try to make 
certain we encourage more minorities to go into teaching?

Ms. Coppin  XE "Ms. Coppin"  .  There is no question about the fact that we do need role 
models for our youngsters.  As a matter of fact, in New York City we established the Center for 
Recruitment and Professional Development, and one of our goals was to increase the percentage of 
teachers of African American ancestry and Hispanic.  As a matter of fact, New York City is such 
an international school, so we are looking for teachers who know Farsi and everything else.

	Yes.  The first and most important thing is that the teacher has to be a high-quality teacher 
who knows his or her subject.  Secondly, the teacher has to be caring and empathetic.  And, thirdly, 
the teacher has to respond to and know the community and be willing to participate in the 
community and work with the youngsters.  And we find many minority teachers who do meet those 
qualifications.

	The qualifications, I just want to say, Mr. Owens, is very, very important, because I don't 
want an unqualified minority teacher either.  But I do think it is absolutely essential that we 
diversify our staff so that our youngsters have role models and have standards to which they can 
aspire.

Chairman McKeon  XE "Chairman McKeon"  .  The gentleman's time has expired.  The chair 
now recognizes Mr. Carter.

Mr. Carter  XE "Mr. Carter"  .  My question may be way off the wall; I was not here to hear 
what everybody had to say.  However, as I hear us talking about teachers, and I happen to have a 
teacher in my family; my son, and I am certain I live in a different part of the world than you do, 
some of you.  I don't live in an inner city area.  But we do see mobility in teachers.  And what we 
see a lot of teachers moving for is the better environment school.  The good teacher wants to go to 
the school that has given him the best environment to be a teacher.  And so the inner-city schools in 
Austin doesn't have a large inner-city population, but the inner-city schools in Austin are moving 
around in record numbers, those teachers because it is a safer environment within which they may 
operate than in the school district that they are in.  And it is a pretty good school district down 
there.

	The Dallas School District, there would probably be car races down I-35 if we recruited up 
in the Dallas School District.

	Now, would you like to comment on the, if you will, the discipline and safety problems that 
exist in schools and how that has an effect on recruiting teachers to go into the teaching profession 
and staying in the teaching profession?

Ms. Keegan  XE "Ms. Keegan"  .  Mr. Chairman, Congressman Carter, in our experience you 
are exactly right when you are speaking about an environment that is favorable to the teacher.  But 
we don't see a huge difference.  The assumption is that in wealthy areas, that is a friendlier 
environment to teach in.  What most really fantastic teachers are looking for is the ability to be 
honored in their decision-making, their determination to get these kids to learn.  And even in the 
inner city, so long as the teacher is given the ability and the backup to control the classroom and 
control the environment that is a fabulous learning environment.

	I am afraid what we have done is created a situation where in too many instances we have 
given up on those urban schools in terms of discipline, and the teacher has a disciplinary exercise, 
the child acts out, the teacher acts upon it appropriately, and for whatever reason the child is 
thrown back into the classroom.  The lesson was learned by all the kids right there.  That is a 
horrible teaching environment.

	So it isn't so much the atmosphere as much as it is the leadership in these schools.  And, 
yes, I think we have a huge problem.  We think it is answered by leadership in the teaching corps 
itself, by allowing them to determine how those things are handled, and by strong principal 
leadership as well.  That creates a great environment for them.

Ms. Coppin  XE "Ms. Coppin"  .  This past year we conducted an exit survey among teachers 
who left in their first year of teaching to try to determine why they left.  You are quite correct when 
you were talking about an environment.  But the environment is not just do you have security 
guards or is it in a nice neighborhood.  What they talked about and stressed was do they have 
support?  Are there resources to help them?  Do they get assistance with youngsters?  Is there some 
follow-up programs?  Are there some support programs and parent engagement programs?

	So that the presence of security and uprights and things of that nature wasn't what they were 
looking for.  They were looking for a well-organized, well-run school where they were respected, 
and that the leadership of the school knew what he or she was doing.

Mr. Carter  XE "Mr. Carter"  .  I am not advocating metal detectors on any school.  I don't 
think there ought to be a behavior quality in any school where a metal detector should even be 
desirable.  And, of course, I come from a background of 20 years in the judiciary and 19 years as 
chairman of the juvenile board for our county, and I have seen lots of juvenile justice issues.  And 
what I am really talking about is discipline within the schools, and a school board and principals 
and others who will back up teachers on those issues.

	I find there is a shortage of that, and it has nothing to do with dollars.  It has nothing to do 
with the rich schools or the poor schools.  It has to do with the schools that kind of go back to old-
fashioned you are going to behave or you are out of here.  And I don't know whether you all 
approve of that or not, but that is where I come from, because I don't tolerate misbehavior and I 
don't think schools, I don't think teachers, should have to tolerate misbehavior.  And I think if we 
are not teaching that the administrators need to back up our teachers, then schools need to be 
teaching administrators they need to back up our teachers, and that is where I was coming from.

	Thank you.

Chairman McKeon  XE "Chairman McKeon"  .  The gentleman's time has expired.  The chair 
now recognizes Mr. Tierney for five minutes. 

Mr. Tierney  XE "Mr. Tierney"  .  I thank the chairman.

I thank the people on the podium for speaking to us and testifying.

	Let me ask four questions, if I can.  So the first one quickly.  Would you tell me in your 
opinion if it is very important, somewhat important, neutral, not very important, or not at all 
important?  All right, one through five, how important do you believe it to be that teacher 
preparation programs ensure prospective teachers can use technology as part of their instructional 
technique in the classroom?

Very?  Very?  Very?  Very?  Very all the way across.  Thank you.

Is there a role for teacher preparation programs post-graduation?  In other words, I would be 
thinking of some responsibility for the teacher programs in mentoring the professional development 
for the first year to three to five years.  And how would we do that?  Maybe starting off to my left 
to right, if you would.

Mrs. Keegan  XE "Ms. Keegan"  .  And I think that is also critically important are those 
mentoring programs.  And we are actually working on programs that would create within the 
school itself the flexibility to have as

Mr. Tierney  XE "Mr. Tierney"  .  But you think the institutions themselves who are preparing 
our teachers to teach could take on that role out in the community?

Ms. Keegan  XE "Ms. Keegan"  .  I think it would be the most beneficial because they are 
working with the kids right there.

Mr. Tierney  XE "Mr. Tierney"  .  Thank you.

Ms. Haycock  XE "Ms. Haycock"  .

Ms. Haycock  XE "Ms. Haycock"  .  I am equally clear for the need for mentoring, less clear 
that it has got to come from higher education.  I think sometimes the best support for teachers 
comes from expert peers, just as long as they are released a substantial part of the day to actually do 
that as opposed to just adding that on.

Mr. Tierney  XE "Mr. Tierney"  .  Therein lays the problem.  And I was thinking maybe we 
could do something.

Sir.

Mr. Wise  XE "Mr. Wise"  .  Mentoring is very, very important.  And like Ms. Haycock, I 
believe it is probably best done by school personnel.  However, we have required now as part of 
our accreditation standards that our colleges follow the graduates during their first several years of 
teaching in order that they can inform us about how well their graduates are doing.

Mr. Tierney  XE "Mr. Tierney"  .  Is that working well?

Mr. Wise  XE "Mr. Wise"  .  It is just being implemented now.

Mr. Tierney  XE "Mr. Tierney"  .  Dr. Kennedy.

Ms. Kennedy  XE "Ms. Kennedy"  .  Yeah.  I agree.  One of the things that do need to happen, I 
think, from the institution, from the higher education institution, is to follow the first two years. 
And the mentoring that is done in those first two years by the higher education is in collaboration 
with mentor teachers.  I think the same thing with the CSU, which is 23 campuses, we survey all of 
our entering teachers and the principals who hire them to evaluate how they are doing and, based 
on that, determine the program for them.

Mr. Tierney  XE "Mr. Tierney"  .  Thank you.


Dr. Robbins.

Mr. Robbins  XE "Mr. Robbins"  .  Higher education should have some role in the early years 
of teaching.  It is very difficult to make that happen.

Mr. Tierney  XE "Mr. Tierney"  .  Dr. Coppin.

Ms. Coppin  XE "Ms. Coppin"  .  I believe that the mentoring should be done by school 
personnel.  However, now, alternative programs, there is a collaborative mentoring program.

Mr. Tierney  XE "Mr. Tierney"  .  Thank you.

	Would you speak just very briefly to the benefit that we have or the value that we would 
have in expanding the loan forgiveness programs that we have or the ones that are proposed to 
include a loan forgiveness program for prekindergarten programs, particularly those within a 
school district, but Early Head Start and Head Start?  Do you think that would be beneficial?

Ms. Haycock  XE "Ms. Haycock"  .  You bet.  We are having a terrifically difficult time 
attracting high-quality people into the profession of preschool education, yet the search says we 
need high quality folks.  It is unquestionably clear, given the low salaries in that field, the loan 
forgiveness program would help big time.

Mr. Tierney  XE "Mr. Tierney"  .  Is that generally agreeable?

	Thank you.

	And lastly let me ask this:  What is the impact of the quality of principals on teachers' 
performance, and ought our teacher preparation institutions also be looking at some principal 
preparation aspects?

Ms. Coppin  XE "Ms. Coppin"  .  Absolutely.  New York State is in the preparation of new 
regulations to strengthen programs for leadership.

Ms. Keegan  XE "Ms. Keegan"  .  Mr. Chairman, Congressman Tierney, today, this morning, 
the Broad Foundation and the Fordham Foundation actually put a report out on educational 
leadership, specifically principals.  It was very interesting recommendations, so you might want to 
get those.

Mr. Tierney  XE "Mr. Tierney"  .  Mr. Chairman, might we ask that that be placed on the 
record, the report?

Chairman McKeon  XE "Chairman McKeon"  .  Without objection, so ordered.

THE BROAD FOUNDATION AND THE FORDHAM FOUNDATION REPORT ON, "BETTER 
LEADERS FOR AMERICA'S SCHOOLS:  A MANIFESTO", SUBMITTED FOR THE 
RECORD BY MRS. LISA GRAHAM KEEGAN- SEE APPENDIX H

Mr. Tierney  XE "Mr. Tierney"  .  Thank you.  Thank you all very much.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you.  The gentleman's time has expired.

	Those bells that you heard going off, we are called to a vote, and we will be there for over a 
half hour, so we are not going to ask the panel to stay.  We really appreciate your time.

Mr. Payne  XE "Mr. Payne"   has asked if he could have 1 minute.

Mr. Payne  XE "Mr. Payne"  .  Maybe Tierney should have asked four questions.

	Let me just say that, what about the fact that if we had a program to also give forgiveness 
for Title I schools, what would you think about that?  I see President Bush is proposing for math 
and science, et cetera.  Do you think that would help?

Ms. Haycock  XE "Ms. Haycock"  .  I would strongly encourage.  But actually if you did for all 
Title I schools, you would include schools even that have a poverty norm of maybe 10 percent.  We 
would strongly encourage you to focus it much more tightly on high-poverty schools so it really 
helps make the difference.

Mr. Payne  XE "Mr. Payne"  .  And would you know about the New Jersey program?  What 
was the experience of bringing in professional people into teaching?  Governor Kean did that 
during his time as Governor of New Jersey.

Ms. Haycock  XE "Ms. Haycock"  .  And that continues.  Like many alternate route programs, it 
has brought in a terrific set of talented people.  And by the way, one of the things that is important 
to remember about alternate route programs, they are providing us proportionately more teachers of 
color than our traditional route program.  So it is a terrific way both to bring in people who actually 
know the answer to the question, why should I learn this, but also to bring in a set of teachers who 
look more like the kids that they teach.

Mr. Payne  XE "Mr. Payne"  .  Thank you.

Chairman McKeon  XE "Chairman McKeon"  .  In the interest of your other colleagues, Mr. 
Van Hollen would like to make one comment.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Thank you, Mr. Chairman.  I know we all have to 
vote.

	I want to thank all the witnesses for your testimony, and I have been reading over it as well.  
A special welcome to Dr. Wise, my constituent, and thank you for being here.

	Thank you, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  .  Thank you very much.  Thank you for being 
here.  And this is just the start.  We appreciate if those who didn't get the opportunity to ask 
questions could submit those in writing.  If you could get those to us, we would appreciate that.  
And if you will keep in touch with us as we go through this process, we would like to continue to 
be able to call on you and ask for your advice and help. 

With that, this hearing stands adjourned.  Thank you.

	[Whereupon, at 3:47 p.m., the subcommittee was adjourned.]


APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN 
HOWARD P. "BUCK" MCKEON, SUBCOMMITTEE ON 21ST CENTURY 
COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC 

<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX B -- WRITTEN TESTIMONY OF MRS. LISA GRAHAM 
KEEGAN, CHIEF EXECUTIVE OFFICER, EDUCATION LEADERS 
COUNCIL, WASHINGTON, D.C. 
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX C -- WRITTEN TESTIMONY OF MS. KATI HAYCOCK, 
DIRECTOR, THE EDUCATION TRUST, WASHINGTON, D.C. 
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX D -- WRITTEN TESTIMONY OF DR. ARTHUR E. WISE, 
PRESIDENT, NATIONAL COUNCIL FOR ACCREDITATION OF TEACHER 
EDUCATION, WASHINGTON, D.C. 
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX E -- WRITTEN TESTIMONY OF DR. LOUANNE KENNEDY, 
PROVOST AND VICE PRESIDENT FOR ACADEMIC AFFAIRS, 
CALIFORNIA STATE UNIVERSITY, NORTHRIDGE, NORTHRIDGE, 
CALIFORNIA  
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX F -- WRITTEN TESTIMONY OF DR. JERRY ROBBINS, DEAN, 
COLLEGE OF EDUCATION, EASTERN MICHIGAN UNIVERSITY, 
YPSILANTI, MICHIGAN 
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX G -- WRITTEN TESTIMONY OF DR. JOYCE R. COPPIN, 
CHIEF EXECUTIVE, DIVISION OF HUMAN RESOURCES, NEW YORK 
CITY DEPARTMENT OF EDUCATION, BROOKLYN, NEW YORK 
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX H -- THE BROAD FOUNDATION AND THE FORDHAM 
FOUNDATION REPORT ON, "BETTER LEADERS FOR AMERICA'S 
SCHOOLS:  A MANIFESTO", SUBMITTED FOR THE RECORD BY MRS. 
LISA GRAHAM KEEGAN   
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX I -- QUESTIONS TO WITNESSES SUBMITTED FOR THE 
RECORD BY REPRESENTATIVE MAX BURNS AND RESPONSES FROM 
DR. JERRY ROBBINS, DR. ARTHUR E. WISE, DR. LOUANNE KENNEDY, 
AND MS. KATI HAYCOCK.
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX J -- WRITTEN STATEMENT SUBMITTED FOR THE RECORD 
BY REPRESENTATIVE BETTY MCCOLLUM
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

APPENDIX K -- LETTER SUBMITTED FOR THE RECORD FROM DR. 
DARYAO S. KHARTI AND DR. ANNE O. HUGHES
<GRAPHICS NOT AVAILABLE IN TIFF FILE>

TABLE OF INDEXES

Chairman McKeon, 1, 3, 5, 6, 7, 9, 11, 12, 14, 16, 18, 21, 22, 24, 26, 28, 30, 32, 34, 35
Mr. Carter, 30, 31
Mr. Cole, 18, 19, 21
Mr. Ehlers, 22, 23, 24
Mr. Gingrey, 26, 28
Mr. Kildee, 4, 6, 21, 22
Mr. Owens, 6, 28, 29, 30
Mr. Payne, 34, 35
Mr. Robbins, 14, 20, 21, 26, 29, 33
Mr. Tierney, 32, 33, 34
Mr. Van Hollen, 35
Mr. Wise, 11, 20, 22, 23, 24, 28, 33
Mrs. McCarthy, 25, 26
Ms. Coppin, 17, 20, 26, 29, 30, 31, 33, 34
Ms. Haycock, 9, 19, 28, 32, 34, 35
Ms. Keegan, 7, 19, 22, 27, 31, 32, 34
Ms. Kennedy, 13, 20, 29, 33


</pre></body></html>
